No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
TERROL DEBAUN TRAVIS,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
On Petition for Writ of Certiorari
to the United States Court of Appeals
For the Fifth Circuit
_______________
PETITION FOR A WRIT OF CERTIORARI
_______________
PETITIONER’S APPENDIX
___________
Adam Nicholson
Assistant Federal Public Defender
Federal Public Defender’s
Office Northern District of
Texas
525 S. Griffin Street, Suite 629
Dallas, TX 75202
214.767.2746
Adam_Nicholson@fd.org

APPENDIX TABLE OF CONTENTS
Appendix

Document Description

Appendix A

Judgment and Opinion of
Fifth Circuit, CA No. 20-10408,
dated December 1, 2020.

1-5

Appendix B

Judgment of Revocation and
Sentence of the United States
District Court for the Northern
District of Texas, entered April 17,
2020.

1-5

.

Appendix Page Range

APPENDIX A

Case: 20-10408

Document: 00515657030

Page: 1

Date Filed: 12/01/2020

United States Court of Appeals
for the Fifth Circuit
___________

United States Court of Appeals
Fifth Circuit

FILED

No. 20-10408
Summary Calendar
___________

December 1, 2020
Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Terrol Debaun Travis,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-270-1
____________________________
Before Higginbotham, Jones, and Costa, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

App. A 001

Case: 20-10408

Document: 00515657011

Page: 1

Date Filed: 12/01/2020

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

December 1, 2020

No. 20-10408
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Terrol Debaun Travis,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-270-1
Before Higginbotham, Jones, and Costa, Circuit Judges.
Per Curiam:*
Terrol Debaun Travis appeals the sentence imposed after his guilty
plea conviction for possession of a firearm by a felon. He maintains that the
district court erred by applying the provisions of the Armed Career Criminal
Act (ACCA), 18 U.S.C. § 924(e), and imposing enhanced punishment. He

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

App. A 002

Case: 20-10408

Document: 00515657011

Page: 2

Date Filed: 12/01/2020

No. 20-10408

contends that, for purposes of the ACCA, his prior convictions in Texas for
possession with intent to deliver a controlled substance and for aggravated
assault with a deadly weapon do not constitute predicate offenses.
Travis asserts that his conviction in Texas for possession with intent
to deliver a controlled substance does not qualify as a “serious drug offense”
under the ACCA because the statute of conviction can be violated by an offer
to sell. However, as he admits, his claim is foreclosed. See United States v.
Cain, 877 F.3d 562, 562-563 (5th Cir. 2017); United States v. Vickers, 540 F.3d
356, 364-65 (5th Cir. 2008).
He also argues that his conviction in Texas for aggravated assault with
a deadly weapon is not a “violent felony” under the ACCA because the crime
can be committed with a mens rea of recklessness and does not require the
use, attempted use, or threatened use of physical force. His challenge, as he
acknowledges, is foreclosed. See United States v. Torres, 923 F.3d 420, 42526 (5th Cir. 2019); United States v. Gracia-Cantu, 920 F.3d 252, 253-54 (5th
Cir.), cert. denied, 140 S. Ct. 157 (2019); United States v. Gomez Gomez, 917
F.3d 332, 333-34 (5th Cir. 2019), petition for cert. filed (U.S. July 19, 2019)
(No. 19-5325).
The Government has filed an unopposed motion for summary
affirmance and, alternatively, requests an extension of time to file its brief.
Because the issues presented on appeal are foreclosed, summary affirmance
is proper. See Groendyke Transp., Inc. v. Davis, 406 F.2d 1158, 1162 (5th
Cir. 1969).
Thus, the Government’s motion for summary affirmance is
GRANTED, the Government’s alternative motion for an extension of time
to file a brief is DENIED, and the judgment of the district court is
AFFIRMED.

2

App. A 003

Case: 20-10408

Document: 00515657021

Page: 1

Date Filed: 12/01/2020

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

December 01, 2020
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc

No. 20-10408

USA v. Terrol Travis
USDC No. 4:19-CR-270-1

Enclosed is a copy of the court's decision. The court has entered
judgment under Fed. R. App. P. 36. (However, the opinion may yet
contain typographical or printing errors which are subject to
correction.)
Fed. R. App. P. 39 through 41, and 5TH Cir. R. 35, 39, and 41 govern
costs, rehearings, and mandates. 5TH Cir. R. 35 and 40 require you
to attach to your petition for panel rehearing or rehearing en
banc an unmarked copy of the court's opinion or order.
Please
read carefully the Internal Operating Procedures (IOP's) following
Fed. R. App. P. 40 and 5TH Cir. R. 35 for a discussion of when a
rehearing may be appropriate, the legal standards applied and
sanctions which may be imposed if you make a nonmeritorious
petition for rehearing en banc.
Direct Criminal Appeals. 5TH Cir. R. 41 provides that a motion for
a stay of mandate under Fed. R. App. P. 41 will not be granted
simply upon request. The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court. Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases.
If you were unsuccessful in the district court
and/or on appeal, and are considering filing a petition for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under Fed. R. App. P. 41. The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court Appointed Counsel. Court appointed counsel is responsible
for filing petition(s) for rehearing(s) (panel and/or en banc) and
writ(s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order. If it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for
rehearing and certiorari.
Additionally, you MUST confirm that
this information was given to your client, within the body of your
motion to withdraw as counsel.

App. A 004

Case: 20-10408

Document: 00515657021

Page: 2

Date Filed: 12/01/2020

Sincerely,
LYLE W. CAYCE, Clerk

By: _______________________
Nancy F. Dolly, Deputy Clerk
Enclosure(s)
Mr. Adam Nicholson
Ms. Leigha Amy Simonton

App. A 005

APPENDIX B

J!&

Case 4:19-cr-00270-A Document 38 Filed 04/17/20

FILED

Winiteb $tates 11Btsttict <!I:ourt
Northern District of Texas
Fort Worth Division
UNITED STATES OF AMERICA

DISTRl(;TJ:_O_URT

DISTRICT
Page 1NORTHERN
of 5 PageID
126 OF TEXAS

§

APR 1 7 ;)[1?0
CLERK, U.S. DISTRiCT COURT

By _ _""""'""'""_ __
lkputy

v.

§

TERROL DEBAUN TRAVIS

§

Case Number: 4: 19-CR-270-A(O 1)

JUDGMENT IN A CRIMINAL CASE
The government was represented by Assistant United States Attorney Michael Levi
Thomas. The defendant, TERROL DEBAUN TRAVIS, was represented by Federal Public
Defender through Assistant Federal Public Defender George Howard Lancaster, Jr.
The defendant pleaded guilty on November 1, 2019 to the one count Indictment filed on
September 18,2019. Accordingly, the court ORDERS that the defendant be, and is hereby,
adjudged guilty of such count involving the following offense:
Title & Section I Nature of Offense
18 U.S.C. §§ 922(g)(l), and 924(a)(2) and (e) Felon in Possession of Firearm

Date Offense Concluded
July9,2019

Count
I

As pronounced and imposed on April I 7, 2020, the defendant is sentenced as provided in
this judgment.
The court ORDERS that the defendant immediately pay to the United States, through· the
Clerk of this Court, a special assessment of $100.00.
The court further ORDERS that the defendant shall notify the United States Attomey for
this district within 30 days of any change of name, residence address, or mailing address, as set
forth below, until all fines, restitution, costs, and special assessments imposed by this Judgment
are fully paid. If ordered to pay restitution, the defendant shall notify the court, through the clerk
of this cou1i, and the Attorney General, through the United States Attorney for this district, of
any material change in the defendant's economic circumstances.
IMPRISONMENT
The comi fmiher ORDERS that the defendant be, and is hereby, committed to the custody
of the United States Bureau of Prisons to be imprisoned for a term of 262 months. This sentence
shall be served consecutively to any unserved sentences in Case Nos. 1567306D, I 567309D and
1567737D in the 372"d Judicial District Court, Tarrant County, Texas, Case Nos. 0864580D;
0904227D; 0904230D; 0904226D; 0921347D in the 213 111 Judicial District Court, Tarrant County,
Texas, and Case No. 1322926D in the Criminal District Court No. 3 of Tarrant County, Texas.
This sentence shall be served concunently with any unserved sentence imposed in Case No.
1608014D in the 372"d Judicial District Court, Tarrant County, Texas.

App. B 001

Case 4:19-cr-00270-A Document 38 Filed 04/17/20

Page 2 of 5 PageID 127

The defendant is remanded to the custody of the United States Marshal.

SUPERVISED RELEASE
The comi further ORDERS that, upon release from imprisonment, the defendant shall be
on supervised release for a term of five (5) years and that while on supervised release, the
defendant shall comply with the following conditions of supervised release:
I.

The defendant shall not commit another federal, state, or local crime.

2.

The defendant shall not unlawfully possess a controlled substance.

3.

The defendant shall cooperate in the collection of DNA as directed by the U.S. Probation
Oftlcer, as authorized by the Justice for All Act of 2004.

4.

The defendant shall refrain from any unlawful use of a controlled substance, submitting
to one drug test within 15 days of release from imprisonment and at least two periodic
drug tests thereafter, as directed by the probation officer pursuant to the mandatory drug
testing provision of the 1994 crime bill.

5.

The defendant shall pmiicipate in a program approved by the probation officer for
treatment of narcotic or drug or alcohol dependency that will include testing for the
detection of substance use, abstaining from the use of alcohol and all other intoxicants
during and after completion of treatment, contributing to the costs of services rendered at
the rate of at least $25 per month.

6.

The defendant shall also comply with the Standard Conditions of Supervision as
hereinafter set forth.

Standard Conditions of Supervision
I.

The defendant shall repmi in person to the probation office in the district to which the
defendant is released within seventy-two (72) hours of release from the custody of the
Bureau of Prisons.

2.

The defendant shall not possess a firearm, destructive device, or other dangerous weapon.

3.

The defendant shall provide to the U.S. Probation Officer any requested financial
information.

4.

The defendant shall not leave the judicial district where the defendant is being supervised
without the permission of the Comi or U.S. Probation Officer.

5.

The defendant shall report to the U.S. Probation Officer as directed by the court or U.S.
Probation Officer and shall submit a truthful and complete written repmi within the first
five (5) days of each month.
2

App. B 002

Case 4:19-cr-00270-A Document 38 Filed 04/17/20

Page 3 of 5 PageID 128

6.

The defendant shall answer truthfully all inquiries by the U.S. Probation Officer and
follow the instructions of the U.S. Probation Officer.

7.

The defendant shall support his dependents and meet other family responsibilities.

8.

The defendant shall work regularly at a lawful occupation unless excused by the U.S.
Probation Officer for schooling, training, or other acceptable reasons.

9.

The defendant shall notify the probation officer at least ten (10) days prim· to any change
in residence or employment.

10.

The defendant shall refrain from excessive use of alcohol and shall not purchase, possess,
use, distribute, or administer any narcotic or other controlled substance, or any
paraphernalia related to such substances, except as prescribed by a physician.

11.

The defendant shall not frequent places where controlled substances are illegally sold,
used, distributed, or administered.

12.

The defendant shall not associate with any persons engaged in criminal activity, and shall
not associate with any person convicted of a felony unless granted permission to do so by
the U.S. Probation Officer.

13.

The defendant shall permit a probation officer to visit him at any time at home or
elsewhere and shall permit confiscation of any contraband observed in plain view by the
U.S. Probation Officer.

14.

The defendant shall notify the probation officer within seventy-two (72) hours of being
arrested or questioned by a law enforcement officer.

15.

The defendant shall not enter into any agreement to act as an informer or a special agent
of a law enforcement agency without the permission of the court.

16.

As directed by the probation officer, the defendant shall notify third parties of risks that
may be occasioned by the defendant's criminal record or personal histmy or
characteristics, and shall permit the probation officer to make such notifications and to
confinn the defendant's compliance with such notification requirement.

The court hereby directs the probation officer to provide defendant with a written
statement that sets forth all the conditions to which the term of supervised release is subject, as
contemplated and required by 18 U.S.C. § 3583(f).

The court did not order a fine because the defendant does not have the financial resource
or future earning capacity to pay a fine.

3

App. B 003

Case 4:19-cr-00270-A Document 38 Filed 04/17/20

Page 4 of 5 PageID 129

STATEMENT OF REASONS
The "Statement of Reasons" and personal information about the defendant are set forth
on the attachment to this judgment.
Signed this the 17th day of April, 2020.

_/

4

App. B 004

Case 4:19-cr-00270-A Document 38 Filed 04/17/20

Page 5 of 5 PageID 130

RETURN
I have executed the imprisonment part of this Judgment as follows:

Defendant delivered on _ _ _ _ _ _ _, 2020 to--~---:-::--:----::--:-:-~-:--at _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ , with a cetiified copy of this Judgment.

United States Marshal for the
Notihern District of Texas

By _ _ _~-----------­
Deputy United States Marshal

5

App. B 005

